        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Cooperative Research and
Development Agreements at the
Department of Energy's Office of
Science Laboratories




DOE/IG-0826                      September 2009
                              Department of Energy
                                Washington, DC 20585
                                   September 30, 2009


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                 INFORMATION: Audit Report on "Cooperative Research and
                         Development Agreements at the Department of Energy's Office
                         of Science Laboratories:

BACKGROUND

Technology transfer, disseminating technology developed by the Department of Energy's
laboratories to the general science community and the public, including non-Federal
technology partners, and private firms, is one of the Department's top priorities. One of
the ways in which this transfer is accomplished is through the use of Cooperative
Research and Development Agreements (CRADA), a method established under the 1986
Federal Technology Transfer Act. In 1989, the National Competitiveness Technology
Transfer Act established the technology transfer concept as a Federal mission and
authorized government-owned, contractor-operated laboratories to use CRADAs to
facilitate the development of technology and transfer that technology to the private
sector.

The Office of Science is responsible for managing CRADAs at ten national laboratories.
The Department's CRADA Directive (DOE O 483.1) and Manual (DOE M 483.1-1)
delegates the responsibility for evaluating the CRADA processes and measuring CRADA
performance to Federal site offices located at each laboratory. The site offices are
responsible for ensuring that the laboratories obtain a final report documenting the results
of research and any new inventions or technology, and forward a copy of the report to the
Department's Office of Scientific and Technical Information (OSTI). Ultimately, OSTI is
responsible not only for preserving the scientific and technical information generated
through a CRADA but also making this information readily available to the scientific
community and to the public.

In Fiscal Year (FY) 2007, the Department had a total of 697 CRADAs. Of this number,
276 CRADAs were at the 10 national laboratories managed by the Office of Science, and
of these, 196 or 71 percent, were at generated by Argonne National Laboratory
(Argonne) in Argonne, Illinois; Brookhaven National Laboratory (Brookhaven) in Upton,
New York; and Oak Ridge National Laboratory (Oak Ridge) in Oak Ridge, Tennessee.

Given the priority which has been placed on transferring technology to the private sector,
we initiated this audit to determine whether the Office of Science managed the
Cooperative Research Agreement process in accordance with Department requirements.
.
RESULTS OF AUDIT

The Office of Science generally managed the use of CRADA activities in accordance
with Department requirements. However, Science had not always taken the steps
necessary to ensure that the laboratories obtained final reports and forwarded the reports
to OSTI. Since Argonne, Brookhaven, and Oak Ridge administered the majority of
CRADAs managed by the Office of Science, we focused our evaluation on these three
laboratories.

The Department required the laboratories and their industry partners to produce a final
report as a deliverable for each completed CRADA project. These activities are also
required to send a copy of all final reports to OSTI for dissemination to the scientific
community and to the general public. These reports are not mere symbols of the work
product. Instead, they serve to memorialize the technical approach and accomplishments
under the CRADA, which is a vital element in the effort to transfer the technology as
effectively and expediously as possible.

The three laboratories we visited had procedures to request final reports from researchers
and included a requirement for a final report in agreements with industry partners. Yet,
only one of the three laboratories had procedures to transmit final reports to OSTI.
Procedural requirements notwithstanding, our analysis showed that a disturbing
proportion of the final reports were never received and, even when they were received,
they were not provided to OSTI. The results of our analysis are displayed in the
following table.

                               FINAL CRADA REPORTS
                                   FYs 2004 - 2008
                              CRADAs             Final CRADA      Reports Sent to
                              Completed             Reports           OSTI
                                                   Obtained
        Argonne                    50                  11                2
        Brookhaven                 17                   8                0
        Oak Ridge                  71                  64               63

        Totals                    138                83                 65

On its face, this analysis would suggest that Oak Ridge National Laboratory routinely
submitted final reports to OSTI. However, only seven of the final reports had actually
been transmitted to OSTI prior to the start of our audit. The average number of days
from publication of the final report to receipt by OSTI was 820 days for the 63 reports
forwarded by Oak Ridge.

PERFORMANCE MONITORING

The Federal site offices were not consistently overseeing CRADA activities at the three
national laboratories we reviewed. For example, none of the site offices had established


                                             2
goals and measures to evaluate how effectively their respective laboratories obtained
final reports and sent the reports to OSTI. Also, the Argonne and Brookhaven Site
Offices had not performed detailed reviews of the CRADA process at their laboratories;
an activity which could have disclosed the lack of final reports obtained and sent to
OSTI. Accordingly, neither site office knew that their laboratories' procedures for
obtaining final reports were not effectively implemented. Further, neither site office
knew that their laboratories lacked policies on forwarding reports to OSTI. In fact, the
Brookhaven Site Office was unaware of the requirement to forward final CRADA reports
to OSTI.

To its credit, in June 2007, the Oak Ridge Site Office identified both of these issues
during its biennial review of Technology Transfer. As a result of these findings, the Oak
Ridge Site Office required the Laboratory to submit a corrective action plan, which
included holding back some funding until the final CRADA reports were obtained.
While the corrective actions taken may account for the relatively better performance of
Oak Ridge in receiving final reports from researchers, it did not improve the Laboratory's
performance in forwarding the final CRADA reports to OSTI in a timely manner.

RESEARCH REPORT DISTRIBUTION IMPACTS

The Department has stated that accelerating the dissemination of research and
development information serves to accelerate the pace of scientific progress itself. By
not ensuring that its laboratories obtained and disseminated final CRADA reports, the
Office of Science has not ensured that the scientific and technical information generated
by laboratory research was available throughout the Department, as well as the scientific
community and the public. This process serves, as well, to document new inventions and
breakthrough technologies resulting from CRADA efforts and reduce redundant research
by ensuring that historical information is widely disseminated.

RECOMMENDATIONS

We recommend that the Deputy Director for Field Operations, Office of Science, direct
the site offices to:

   1. Establish performance measures to assess the laboratories' performance in
      obtaining final CRADA reports and transmitting the reports to OSTI;

   2. Verify that the laboratories establish policies to require researchers to transmit
      final CRADA reports for all completed or terminated CRADAs; and,

   3. Periodically review whether the laboratories are receiving and promptly
      transmitting final CRADA reports to OSTI.




                                             3
MANAGEMENT COMMENTS AND AUDITOR RESPONSE

Management agreed with our findings and generally concurred with our
recommendations. However, management did not agree that performance measures
should be implemented at this time. Instead, management stated that by following our
other two recommendations, the laboratories would be in compliance with Departmental
requirements, without necessitating the creation of additional performance reporting
requirements. While we agree that additional attention paid to this issue by the site
offices would be beneficial, we continue to believe that performance measures would
better focus the laboratories on the importance of receiving the reports from researchers
and sending the reports to OSTI.

An exit conference was held with Office of Science Management on September 29, 2009.

Attachments

cc: Deputy Secretary
    Under Secretary of Energy
    Chief of Staff
    Manager, Argonne National Laboratory Site Office
    Manager, Brookhaven National Laboratory Site Office
    Manager, Oak Ridge National Laboratory Site Office




                                            4
                                                                           Attachment 1


SCOPE AND METHODOLOGY

The audit was performed between October 2008 and July 2009 at Argonne National
Laboratory in Argonne, Illinois; Oak Ridge National Laboratory in Oak Ridge,
Tennessee; and Brookhaven National Laboratory in Upton, New York. We also
requested information from the Office of Scientific and Technical Information in Oak
Ridge, Tennessee. To accomplish our audit object, we:

   •   Reviewed laws, regulations, and Departmental Directives related to Cooperative
       Research and Development Agreements (CRADA);

   •   Selected and reviewed sample Cooperative Research and Development
       Agreements active during Fiscal Years 2004 through 2008 at the Argonne,
       Brookhaven, and Oak Ridge National Laboratories;

   •   Confirmed the Laboratory submissions with the Office of Scientific and Technical
       Information (OSTI); and,

   •   Held discussions with responsible Departmental and Laboratory personnel.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. Accordingly, the audit included reviews of Departmental policies,
procedures, and performance measures related to the Department of Energy's
(Department) management of CRADA. We assessed performance measures in
accordance with the Government Performance and Results Act of 1993 and concluded
that the Department had not established performance measures related to the receipt of
final CRADA reports and transmission of final CRADA reports to OSTI. Because our
review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We used computer-processed
data and performed reliability tests of such data as necessary to achieve our audit
objective.




                                           5
                                                                              Attachment 2


RELATED REPORTS

•   Dissemination of Research from the Environmental Molecular Sciences Laboratory,
    (DOE/IG-0526, September 2001). The Environmental Molecular Sciences
    Laboratory (EMSL) did not always collect and forward the results of nonproprietary
    research to Office of Scientific and Technical Information (OSTI). The report found
    that the EMSL had not received research results or deliverables for 94 of 153
    completed research projects, and had not forwarded to OSTI 640 of 700 deliverables
    that EMSL did receive. This occurred because the management system did not
    identify deliverables that were due and performance measures were not used to judge
    progress made in collecting and forwarding deliverables to OSTI. Further, contractor
    and Department of Energy (Department) officials claimed that they did not fully
    understand the requirements for sending research results to OSTI. The report
    concluded that research results from nonproprietary research must be promptly
    collected and disseminated to ensure that taxpayers benefit from their investment in
    the EMSL.

•   Peer-Reviewed Scientific Literature Generated at the Department's Light Sources,
    (DOE/IG-0520, August 2001). The audit found that peer-reviewed literature
    generated from work conducted at the Department's light sources was not available
    for public dissemination at the OSTI. Specifically, the laboratories had failed to
    notify OSTI of available journal articles and OSTI did not have a systematic
    methodology to reconcile the journal articles in its database with those actually
    published in journals. Based on the Department's objectives for the OSTI program, it
    was clear that researchers may not have had full and ready access to valuable
    government-sponsored research information and that scientific advancement was not
    fully promoted.

• Allegations of Conflict of Interest Regarding Licensing of PROTECT by Argonne
  National Laboratory, (DOE/IG-0819, August 2009). This special report reviewed
  allegations that an exclusive technology licensing agreement by Argonne National
  Laboratory (Argonne) was tainted by inadequate competition, conflicts of interest,
  and other improprieties. Our review found that despite a contractual requirement that
  it provide "fairness of opportunity" in its licensing activities, Argonne did not list the
  licensing opportunity on its web site relying instead on personal knowledge of
  Laboratory employees when deciding what firms would be provided the opportunity
  to compete for the exclusive PROTECT license; and that Argonne's actions to avoid
  or ameliorate conflicts of interest prior to awarding the license were less than
  satisfactory.




                                             6
        Attachment 3

.




    7
    Attachment 3 (continued)




8
                                                             IG Report No. DOE/IG-0826

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 586-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
